                                                                              United States Department of State
                                                                              and the Broadcasting Board of Governors

                                                                              Office of Ins/Jector General



                                                                                     MAY 27 1011
The Honorable Edward Drusina, U.S. Commissioner
International Boundary and Water Commission
United States and Mexico, U.S . Section
4171 North Mesa Street, Suite C-I 00
E1 Paso, TX 79902-1441                    U
Dear     comm~ina:
An independent certified public accounting firm, Clarke Leiper, PLLC (Clarke Leiper), was
engaged 10 audit the financial statements of the International Boundary and Water Commission,
United States and Mexico, U.S . Section (USlBWC), as of September 30,2010 and 2009, and for
the years then ended, to provide a report on internal control over financial reporting (including
safeguarding assets) and compliance with laws and regulations and to report any reportable
noncompliance with laws and regulations it tested. The contract required that the audit be done
in accordance with U.S . generally accepted government auditing standards; OfIice of
Management and Budget audit guidance; and the Financial Audit Manual, issued by the
Government Accountability Office and the President's Council on Integrity and Efficiency.

In its audit of USlBWC, Clarke Leiper found

           • 	 the financial statements were presented fairly, in all material respects, in confonnity
               with accounting principles generally accepted in the United States of America;
                                                           l
           • 	 there were no material weaknesses in internal control; and

           • 	 there were no reportable noncompliance with laws and regulations tested.

Clarke Leiper is responsible for the enclosed report, Independent Auditor's Reporl on the
International Boundary and Water Commission, United Stales and Mexico, Us. Section, 2010
and 2009 Financial Statements (AUDIFM- II -27), and the conclusions expressed in the report.

Although Clarke Leiper is the principal auditor ofUS IB WC's financial statements, OIG reviews
the external auditor's work to ensure it is sufficient and acceptable. Somet imes OIG might
disagree with the conclusions or judgments of the external auditor, and if the disagreement
cannot be resolved, OIG must determine the most appropriate way to report the disagreement.

OIG does not agree with the conclusions reached by Clarke Leiper on USIBWC's accounting
treatment of estimated costs to comply with court orders to bring a wastewater treatment plant

I   A material weakness is a deficiency or combination of deficiencies in internal control such that there is a reasonable
possibility that a material misstatement of the entity's financial statements will not be prevented or detected and
corrected on a timely basis.
into compliance with environmental requirements. USIBWC has chosen to report this estimate
as an environmentalliabililY on its 2010 and 2009 consolidated balance sheets ($4,409,148 and
$61 ,477 ,839, respectively). Because of its choice to record this estimate as a liability, USIBWC
has also posted a negative expense, totaling $57,068,691, on its FY 2010 statement of net cost to
reflect the amount it spent in FY 2010 on the project. Certain notes, which are an integral part of
the statements, also reflect USIBWC's decision to record the amounts as an environmental
liability.

The Statement of Federal Financial Accounting Standards No.5, "Accounting for Liabilities of
the Federal Government," states that a liability for federal accounting purposes is a probable
future outflow or other sacrifice of resources as a result of past transactions or events. OIG noted
no past event related to the court order cited by USIBWC. There was no environmental damage
that required correction. Instead, the court order pertained to future events, specifically,
preventing future environmental damage through construction of assets or operating a water
treatment facility. The Federal Accounting Standards Advisory Board (FASAB), which
establishes generally accepted accounting principles (GAAP) for Federal reporting entities,
provided advice on this topic on December 9, 2009. FASAB indicated that a liability did not
exist because the remedy in the court case addressed future events and transactions rather than
past events or transactions.

Based on this information, OIG concl udes that USIBWC has materially departed from GAAP.
Because of the dollar magnitude of the transactions, OIG believes that USIBWC's FY 2010 and
2009 financial statements do not present fairly, in conformity with accounting principles
generally accepted in the United States of America, the financial position and cost of operations.
Under these circumstances, auditing standards prescribe an adverse opinion.

USlBWC's comments are included in Appendix A to the enclosed report. OIG appreciates the
cooperation extended to Clarke Leiper by USIBWC managers and staff during the audit .

If you have any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for
Audits, at (202) 663 -0372 or Gayle Voshell, Director of the Financial Management Division, at
(703) 284-2681 or by email at voshellg@state.gov.

Sincerely,




~:
H	
 e
          . Geisel 

        Inspector General 


Enclosures: As stated.

cc: 	 RMlDCFO - Christopher H. Flaggs 

      WHAIMEX - Russell L. Frisbie 

      Clarke Leiper, PLLC - Leslie A Leiper 


                                                 2
        Independent Auditor’s Report 


International Boundary and Water Commission, 

           United States and Mexico, 

                 U.S. Section, 

              Financial Statements 


        September 30, 2010 and 2009 


         AUD/FM-11-27, May 2011 





           Clarke Leiper, PLLC
        Certified Public Accountants
           6265 Franconia Road
        Alexandria, Virginia 22310
               (703) 922-7622
                                              CLARKE LEIPER PLLC
                                           CERTIFIED PUBLIC ACCOUNTANTS
                                                 6265 FRANCONIA ROAD
                                               ALEXANDRIA, VA 22310-2510
                                                      703-922-7622
                                                   FAX: 703-922-8256
DORA M. CLARKE
LESLIE A. LEIPER




                                    INDEPENDENT AUDITOR’S REPORT


       To the United States Commissioner 

       International Boundary and Water Commission,

       United States and Mexico, U.S. Section: 


       We (Clarke Leiper, PLLC) have audited the accompanying International Boundary and Water
       Commission, United States and Mexico, U.S. Section (USIBWC), Consolidated Balance Sheets,
       Consolidated Statements of Net Cost, Consolidated Statements of Changes in Net Position, and
       Combined Statements of Budgetary Resources (annual financial statements) as of, and for the
       years ended, September 30, 2010 and 2009. We have considered internal control over financial
       reporting and compliance in place as of September 30, 2010, and for the year then ended, and we
       tested compliance with selected laws and regulations.

       In our audits of USIBWC’s 2010 and 2009 financial statements, we found

               •	 the financial statements are presented fairly, in all material respects, in conformity
                  with accounting principles generally accepted in the United States of America;

               •	 no material weaknesses in internal control over financial reporting and compliance
                  with laws and regulations; and

               •	 no instances of reportable noncompliance with laws and regulations we tested.

       Each of these conclusions is discussed in more detail on the following pages. This report also
       discusses the audit objectives, scope, and methodology.

                         OPINION ON THE ANNUAL FINANCIAL STATEMENTS

       In our opinion, USIBWC’s annual financial statements, including the notes thereto, present
       fairly, in all material respects, USIBWC’s financial position as of September 30, 2010 and 2009,
       and its net cost of operations, changes in net position, and changes in budgetary resources for the
       years then ended, in conformity with accounting principles generally accepted in the United
       States of America.
                                     INTERNAL CONTROL 


In planning and performing our audits of USIBWC’s financial statements as of, and for the years
ended, September 30, 2010 and 2009, in accordance with auditing standards generally accepted
in the United States of America, we considered USIBWC’s internal control over financial
reporting and compliance as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the annual financial statements, but not for the purpose of expressing
an opinion on the effectiveness of USIBWC’s internal control over financial reporting and
compliance. Accordingly, we do not express an opinion on the effectiveness of USIBWC’s
internal control or on management’s assertion on internal control included in the Management’s
Discussion and Analysis section.

We limited our consideration of internal control to those controls necessary to achieve the
objectives described in Office of Management and Budget (OMB) Bulletin 07-04, Audit
Requirements for Federal Financial Statements, as amended. We did not consider all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982, such as those controls relevant to ensuring efficient operations.

The purpose of internal control is to provide management with reasonable, but not absolute,
assurance that the following objectives are met:

       •	 Financial reporting: Transactions are properly recorded, processed, and summarized
          to permit the preparation of financial statements in conformity with accounting
          principles generally accepted in the United States of America, and assets are
          safeguarded against loss from unauthorized acquisition, use, or disposition.

       •	 Compliance with laws and regulations: Transactions are executed in accordance with
          laws governing the use of budget authority, government-wide policies, laws identified
          by OMB in Appendix E of Bulletin 07-04, and other laws and regulations that could
          have a direct and material effect on the annual financial statements.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect and correct misstatements on a timely basis. A material weakness is a
deficiency or combination of deficiencies in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented
or detected and corrected on a timely basis.

Our consideration of the internal control over financial reporting and compliance was not
designed to identify all deficiencies in internal control that might be deficiencies, significant
deficiencies, or material weaknesses. Therefore, there can be no assurance that all deficiencies,
significant deficiencies, or material weaknesses have been identified. We did not identify any
deficiencies in internal control that we consider to be material weaknesses, as defined.




                                                 2

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that
is less severe than a material weakness yet important enough to merit attention by those charged
with governance. We consider the following deficiency in USIBWC’s internal control to be a
significant deficiency:

       •	 USIBWC uses the Department of State’s (Department) Global Financial Management
          System (GFMS) as a means to process accounting transactions and produce financial
          reports, including USIBWC’s quarterly and annual financial statements. Defects in
          the construction of posting models within GFMS have resulted in erroneous data
          being included in reports issued to USIBWC, particularly in the area of budgetary
          accounts. This condition has necessitated manual override and correction by
          USIBWC staff. While USIBWC and Department representatives are working to
          resolve these problems, they remained unresolved at September 30, 2010.

We noted certain other internal control issues that we have reported to USIBWC’s management
in a separate letter.

                     COMPLIANCE WITH LAWS AND REGULATIONS

USIBWC management is responsible for complying with laws and regulations applicable to
USIBWC. As part of obtaining reasonable assurance about whether the annual financial
statements are free of material misstatement, we performed tests of USIBWC’s compliance with
certain provisions of laws and regulations, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts, and certain other laws and
regulations specified in OMB Bulletin 07-04, as amended, that we deemed to be applicable to
USIBWC’s annual financial statements. We limited our tests of compliance to these provisions,
and we did not test compliance with all laws and regulations applicable to USIBWC.
Noncompliance may occur and not be detected by these tests. This testing may not be sufficient
for other purposes. The objective of our audit of the annual financial statements, including our
tests of compliance with provisions of selected laws and regulations, was not to provide an
opinion on overall compliance with such provisions. Accordingly, we do not express such an
opinion.

Reportable instances of noncompliance are failures to follow requirements or violations of
prohibitions in statutes and regulations that cause us to conclude that the aggregation of the
misstatements resulting from those failures or violations is material to the financial statements or
that sensitivity warrants disclosure thereof. The results of our tests of compliance with selected
provisions of laws and regulations disclosed no reportable instances of noncompliance.

                         CONSISTENCY OF OTHER INFORMATION

USIBWC’s Management’s Discussion and Analysis, required supplementary information, and
other accompanying information contain a wide range of information, some of which is not
directly related to the financial statements. We did not audit, and accordingly do not express an
opinion on, this information. We have applied certain limited procedures, which consisted
principally of comparing the information for consistency with the financial statements and

                                                  3

making inquiries of management regarding the methods of measurement and presentation of the
supplementary information. On the basis of this limited work, we found no material
inconsistencies with the financial statements, accounting principles generally accepted in the
United States of America, or OMB guidance.

                          RESPONSIBILITIES AND METHODOLOGY

USIBWC management has the responsibility for

        •	 preparing the annual financial statements, required supplementary information, and
           other accompanying information in conformity with accounting principles generally
           accepted in the United States of America;

        •	 establishing, maintaining, and assessing internal control to provide reasonable
           assurance that the broad control objectives of the Federal Managers’ Financial
           Integrity Act are met; and

        •	 complying with applicable laws and regulations.

We are responsible for expressing an opinion on the annual financial statements based on our
audits. We are responsible for planning and performing an audit to obtain reasonable assurance
about whether USIBWC’s financial statements are presented fairly, in all material respects, in
conformity with accounting principles generally accepted in the United States of America. We
are also responsible for determining whether USIBWC management maintained effective
internal control over financial reporting and compliance. We are also responsible for testing
compliance with selected provisions of applicable laws and regulations that may materially affect
the financial statements and for performing limited procedures with respect to certain other
information appearing in the annual financial statements.

In order to fulfill these responsibilities, we

        •	 examined, on a test basis, evidence supporting the amounts in the annual financial
           statements and related disclosures;

        •	 assessed the accounting principles used and significant estimates made by
           management;

        •	 evaluated the overall presentation of the annual financial statements;

        •	 obtained an understanding of the entity and its operations, including its internal
           controls related to financial reporting and compliance with laws and regulations;

        •	 tested relevant internal controls over financial reporting and compliance and
           evaluated the design and operating effectiveness of internal control;

        •	 considered the design of the process for evaluating and reporting in internal control

                                                 4

           and financial management systems under the Federal Managers’ Financial Integrity
           Act;

       •	 tested compliance with provisions of selected laws and regulations that may have a
          direct and material effect on the annual financial statements;

       •	 obtained written representations from management; and

       •	 performed other procedures as we considered necessary under the circumstances.

We performed our audits in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in the Government
Auditing Standards, and the provisions of OMB Bulletin 07-04. We believe that our audits
provide a reasonable basis for our opinions.

This report is intended solely for the information and use of USIBWC management, the Office of
Inspector General, OMB, the Government Accountability Office, and Congress and is not
intended to be and should not be used by anyone other than those specified parties. This
restriction is not intended to limit the distribution of this report, which is a matter of public
record.

Comments by USIBWC management in this report are presented in Appendix A.




                                                    Clarke Leiper, PLLC



Alexandria, Virginia
March 31, 2011




                                               5

                                                                                                                     Appendix A




                    '''ITR ~ ;,TIO' ~L BOl', DA ~Y              ~ ' 1) \\' ~TE~     COM\HSSIC\.">
                                      r~Il1J)     "AH." " I ) ",·\.CO


                                                 ~byJ , 2011



UMed SUIte'S Dopartment of State
Br080casmg Boer<! <;I Gate,.,."..
0Ifia! ci lJlS!)e(:tor Geoer1iI
Ann: Mr. Harold Geisel, O&puty InspeciOi General
Room 8100. SA·:J,
2201CStteeI. NW.
Wasl'lir\ol<ln, DC 2052()'()308


Sutlject; Draft raporI AUDlF M· I I ·)"'x , IIpril 2011 by Cta.t8                    L~ipet .   PLLC


Dear Mr. Geis8I:


Thank yoo for the e>ppor1uni!y to pro,.;o" • response to the cornmeots on lhe (\ratl
independMt allditor'l report on the /in anci\ll statements of the Inlemat....... Bo\.<>dary
and Wa~ Comm;uOon, Un~ed States and Mexico, U.s. Section (USleWC). 8S <;I, and
for IN! 1"'3'S.....:Ied Sej>lembel 30. 2010 an<l 2(IOg,

As you a<e awar.. , IN! treatm8t1t of \he H1ima1e<1 cost. <;I """"""'"'9 to coyn ~ to
bring w a _ treatment ra61ilies into compIianoe with ""Worvnenta l ltandalcis has
been a suI>jec! <;I extM""" diswssOon be_n lel>'..... ~ of USIBWC , our
eJ<!.mal aud~r:n and the 0I'II0e of InspecI« GerlenII for ....... a l yea'" d ... ing wtIid1
att.ma'" !Je;Jlments were         'f!COi",,,,nded.
                                             We lecognize tflal, n 1IUCh, tI>is it. a matte<
of professional jydgment on..trich indMdua!s can dill«. We oto ... rvoe lhat the "'bred
wiA become e non-issue in 2011, upM                       ""',iJ)Ietior,
                                                         of cooslJ\lCtioo of Itoe treatment
radlil)/ in question.




ce: Diana ForIi, GAO
    Chr.stopher Parker, CPA


         Th< C,           _&, i<j "'1 C <;u,[< HKl ·      ~ 171 ~ .      \to-. S'=I ' U      P-.~,   1"""    "'~I~
                  '"'~' ~ ':-·IIl",   • 11-.\\ , 101"   ~ ' ~-~ I 'I()   • loW   I."" ~~ ......, ".......'


                                                          6
